<html>
<title> - THE UNFOLDING CRISIS IN BURUNDI</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                    THE UNFOLDING CRISIS IN BURUNDI

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 22, 2015

                               __________

                           Serial No. 114-90

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE
95-635PDF                WASHINGTON : 2015                     
                      
                     
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88eff8e7c8ebfdfbfce0ede4f8a6ebe7e5a6">[email&#160;protected]</a>  
                     
                      
                      
                      
                      
                      
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS,                    AMI BERA, California
    Tennessee<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 6/2/15 deg.
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Michael Jobbins, director of global affairs, Search for 
  Common Ground..................................................     4
Elavie Ndura, Ph.D., professor of education, George Mason 
  University.....................................................    12
Ms. Alissa Wilson, public education and advocacy coordinator for 
  Africa, American Friends Service Committee.....................    23
Mr. Steve McDonald, global fellow, Woodrow Wilson International 
  Center for Scholars............................................    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Michael Jobbins: Prepared statement..........................     7
Elavie Ndura, Ph.D.: Prepared statement..........................    16
Ms. Alissa Wilson: Prepared statement............................    25
Mr. Steve McDonald: Prepared statement...........................    36

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Letter from Ambassador Ernest Ndabashinze......................    60
  Statement of Dr. Cara Jones....................................    63

 
                    THE UNFOLDING CRISIS IN BURUNDI

                              ----------                              


                        WEDNESDAY, JULY 22, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 12 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order. And we will be 
joined shortly by our distinguished ranking member, so we 
should just wait for her to begin opening comments. Thank you 
all for being here, and I especially want to thank our 
witnesses for their expertise and for the insights I know they 
will provide to the subcommittee.
    Our hearing today is extremely timely as events are 
unfolding in real time in Burundi, a small nation that is often 
overlooked by the international community, including those of 
us here in the U.S. House and Senate.
    Many are familiar with the horrific genocidal violence that 
gripped Rwanda in the 1990s, as Hutu and Tutsi butchered each 
other in outgrowths of ethnic hatred. Few knew, however, that 
Burundi was also going through a protracted Tutsi versus Hutu 
ethnic struggle that also amounted to genocide in the 1990s.
    Few knew that Burundi, without much fanfare and without the 
largess that the international community showered upon Rwanda, 
overcame its divisive civil war and, following a peace brokered 
by Nelson Mandela solemnized in the Arusha Accords of 2000, has 
sought to heal the wounds of the past and rebuild a nation.
    Today, however, this peace is under the threat of 
unraveling. The sitting President of Burundi Pierre Nkurunziza, 
in apparent defiance of the term limits set forth in the Arusha 
Accords and memorialized in the Constitution, is seeking a 
third term. While the constitutional issue is complex and 
unsettled, the rising political violence and tension--not to 
mention the roughly 160,000 people displaced and seeking refuge 
in neighboring countries--is easy to understand and serves as 
the canary in the coal mine. There are real problems, and again 
we need to be ahead of this, not behind, in trying to mitigate 
a crisis.
    There is a window of opportunity for action, where 
immediate and sustained action can prevent the situation from 
escalating out of control. As in the case of the Central 
African Republic, about which we held two critical hearings in 
our subcommittee in the last Congress, timely attention and 
targeted interventions can stop an incipient conflict from 
metastasizing. Burundi is now approaching a tipping point, 
though it has yet to topple over.
    There is still time, and we in Congress have a role to play 
in sounding the alarm and prodding the administration to take 
action followed by oversight. We also need to avoid the 
temptation to be penny wise and pound foolish. As several of 
our witnesses will explain, by spending a small amount to 
further democracy and governance efforts in fragile states such 
as Burundi, we can avoid much greater cost down the road, and 
of course the mitigation of the loss of life. And I mean not 
simply by the dollar and cents expense, but more importantly, 
like I said, the blood lost and the lives shattered.
    In Burundi, the administration must do more. While often-
lonely voices such as that of Samantha Power have called 
attention to the need for atrocity prevention, too often the 
administration policy has been one of, if not malign neglect 
then certainly non-benign neglect.
    We saw this, for example, in the foot-dragging that 
accompanied the appointment of a Special Envoy for the Great 
Lakes Region of Africa. In January of this year, then Special 
Envoy Russ Feingold announced that he was stepping down. This 
subcommittee called on the administration to find a replacement 
as soon as possible, as the circle of violence was beginning to 
widen in Burundi.
    In May, for example, I stated that a failure to do so 
signaled a ``disengagement when lives are at stake.'' I was 
afraid that we would see a repeat of the administration's 
inaction with respect to the Middle East, where to date it has 
yet to appoint a Special Envoy to Promote Religious Freedom of 
Religious Minorities in the Near East and South Central Asia 
despite Congress having created that position last August, 
almost 1 year ago.
    I look forward to the comments and the testimony of our 
distinguished witnesses. I yield to Ms. Bass.
    Ms. Bass. Thank you, Chairman Smith, for calling this 
meeting and to giving us an opportunity to discuss the current 
state of affairs in Burundi amid the election violence and the 
refugee crisis.
    Last year, I had the opportunity to meet with President 
Nkurunziza and I voiced concerns around the stability in the 
region and feared the current situation. We had a frank 
conversation around it, and he told me at that time that he 
felt that there was, because of how he took office, that there 
was a reason and a rationale for him to run again. And we 
expressed our concern that the situation that is occurring 
right now is what would happen if he pursued that course.
    I want to offer my appreciation to today's witnesses for 
agreeing to participate in the hearing. And I can't help 
myself, but I have to acknowledge the presence of Steve 
McDonald, who we haven't seen in a while, and I am really happy 
to know that you are here today and look forward to your 
testimony.
    I want to close quickly because I know we have a short 
period of time before we are going to be called to vote, but I 
do want to say that in your testimony I hope you will also give 
reference to the surrounding countries, the impact on those 
countries, and then just the outright fear that this could 
really expand into a region-wide war. With that I yield.
    Mr. Smith. Thank you very much. Mr. Donovan?
    Mr. Donovan. Mr. Chairman, I will yield my time too. I will 
be very interested to hear what the witnesses have, and as Ms. 
Bass said we have a short period of time. So thank you, sir.
    Mr. Smith. Thank you. I will do abbreviated introductions.
    Beginning with Mr. Mike Jobbins who is director of global 
affairs at Search for Common Ground, a conflict transformation 
organization that has worked on supporting media, community 
dialogue, and collective actions for peace and reconciliation 
in Burundi for more than two decades, he has covered the Great 
Lakes Region for 10 years, most recently a senior program 
manager for Africa at Search.
    Mr. Jobbins previously lived in Burundi and the DRC and 
worked on the region as a program associate at the Woodrow 
Wilson Center. He previously testified before our committee on 
the Central African Republic.
    We will then hear from Dr. Elavie Ndura who is a tenured 
professor of education and immediate past academic program 
coordinator of the multilingual/multicultural education program 
in George Mason University's College of Education and Human 
Development. She was a 2010-11 fellow at the Woodrow Wilson 
International Center for Scholars and recipient of the Peace 
and Justice Association's 2011 Peace Educator of the Year 
Award. Dr. Ndura was a Fulbright Scholar, and the recipient of 
the British Council Scholarship. She is the founder and 
coordinator of the Burundi Schools Project and author of 
several books on peacekeeping in Africa.
    Then we will hear from Ms. Alissa Wilson who is public 
education and advocacy coordinator for Africa for the American 
Friends Service Committee where she covers peace and security 
issues. Prior to this, she was researcher in Ethics and Human 
Development at Tufts, and an affiliate at the Global Equity 
Initiative at Harvard University.
    Ms. Wilson has served as a long-term election observer with 
the National Democratic Institute in Nigeria and as a Jane 
Addams-Andrew Carnegie fellow at the Center on Philanthropy at 
Indiana University. She has conducted research at the U.N. and 
the Carter Center and facilitated peace education trainings in 
the U.S. and Nigeria.
    We will then hear from Mr. Steve McDonald--again welcome 
back--who is currently the global fellow of the Woodrow Wilson 
International Center for Scholars, freelance writer, and 
international consultant. Until recently he was director of the 
Africa Program at the Wilson Center. He helped to design, 
initiate and manage the Wilson Center's leadership and building 
state capacity and post-conflict resolution programs in Burundi 
and other countries. A specialist in African affairs, Mr. 
McDonald has lived in and worked with Africa for 45 years and 
focused primarily on democracy and governance, human resource 
development, conflict resolution and transformation, 
peacebuilding, and policy formation for Africa.
    Mr. Jobbins?

 STATEMENT OF MR. MICHAEL JOBBINS, DIRECTOR OF GLOBAL AFFAIRS, 
                    SEARCH FOR COMMON GROUND

    Mr. Jobbins. Members of Congress, thank you so much for 
having us here and convening this meeting at a timely moment, 
and inviting us from the civil society groups who have been 
involved in Burundi over the years to join and share what we 
see happening in the country at this critical moment. I ask 
that my written testimony be entered into the record.
    Mr. Smith. Without objection, yours and all the 
distinguished witnesses, and any other materials you want to 
include.
    Mr. Jobbins. Thank you. The Search for Common Ground has 
worked in Burundi since 1995 to prevent violence and support 
social cohesion in the media, working with communities, and 
supporting dialogue processes. Today we support youth, 
religious, and community leaders to prevent violence on the 
ground, support radio programming with the stations that are 
broadcasting at the moment, and we continue to support efforts 
focused on land reform, youth and women's empowerment, and 
post-conflict education. I will begin by speaking briefly on 
recent developments, make three observations about the current 
crisis, and conclude with next steps.
    Yesterday, Burundi held its Presidential elections. Search 
assembled a pool of 150 journalists from the media 
organizations able to report on voting throughout the country. 
While results are expected tomorrow, early signs are trickling 
in and President Nkurunziza is widely expected to win those 
elections.
    They took place against the backdrop of a political crisis, 
which began on April 25, with the ruling nomination, as 
expected, of President Nkurunziza to run for a third term. That 
triggered protests, as you alluded to, from civil society and 
opposition parties who felt it was unconstitutional, violated 
the Arusha Agreement and was a betrayal of the process that 
ended the civil war.
    While the constitutional court upheld Nkurunziza's 
candidacy, protests have continued. There was an attempted coup 
in mid-May, and serious fighting has unfolded in Bujumbura 
periodically over the last few weeks. Despite mediation 
attempts, the impasse continues and will continue after the 
elections. The crisis has caused an estimated 100 deaths so 
far, and more than 100,000 to flee into neighboring countries.
    There are three critical things that we need to understand 
this situation right now. First, the underlying, most critical 
issue is maintaining the social compact that is enshrined in 
the Arusha Agreement. Beyond the words that were agreed to, 
Arusha laid the bedrock for political order that was based on 
dialogue, political inclusivity, and tolerance. The 
Constitution may have set out the rules for governing the 
country, but Arusha enshrined the social compact in the same 
way that the Magna Carta serves in the United Kingdom or the 
Declaration of Independence does here in America.
    During the peace process, all parties committed to move 
beyond a sense of winner-takes-all politics and to build a 
Burundi where all Burundians could live in peace. That peace 
process forced a culture of dialogue and the question is now, 
after this polarization, can that social compact be restored? 
The answer will depend on the actions of the next government 
over the next few days as well as how bodies like the Land 
Commission, the Truth and Reconciliation Commission, and the 
Human Rights Commission handle some of the most contentious 
issues that will be put before it.
    Second, we need to recognize what the crisis is not. 
Despite the political crisis, the Burundian people have put the 
ethnic dimension to the crisis behind them. The overwhelming 
majority of Burundians across the country reject violence, 
support tolerance, and want to see a consensus to end the 
crisis right now. The fact that ethnic identity has not played 
a role in the crisis is a testament to the Burundian people but 
also to the effectiveness of international cooperation.
    It has been with USAID and State Department support that 
the interethnic reconciliation through people-to-people 
approaches has taken place. And it is with concerted effort 
from the U.S. and its international partners that the military 
integration was able to proceed so successfully. And if we 
haven't seen either an ethnic dimension to the crisis or the 
security forces splitting into interregional or identity 
factions is due in large part to the support that they have 
received.
    Third, we have to remember that the crisis comes against 
one of the most desperate poverty situations in the world. 
Burundi is the size of Maryland with a population of 10 million 
and nearly everyone is a farmer. In some areas, the average 
farm yields enough food for just 3 months out of the year to 
feed a family. As a result it is one of the fastest urbanizing 
countries in the world, with young people moving to the cities 
with little future and little economic hope.
    If you look at projections from IFPRI, the research center 
down the road, childhood malnutrition scenarios will drop from 
45 percent to 40 percent over the next 35 years. You cannot 
have a situation with 40 percent malnutrition for the next 35 
years without expecting a series of both political and 
humanitarian crises to continue to unfold. It is unthinkable 
that this situation can persist and that there can be a 
solution without international assistance both to the 
democratic governance consolidation in the country as well as 
to regional economic integration and growth.
    The appointment of Tom Perriello as Special Envoy is an 
opportunity for the U.S. to play a positive role in the short- 
and long-term solutions, and thank you to the subcommittee for 
advocating strongly for that. At the same time, there is reason 
to hope that the talks will resume following these elections 
and that there can be confidence built between the different 
political factions operating the country right now.
    But we have to remember that American attention to Burundi 
has historically lurched from one crisis to another. We talk 
about elections, we talk about democratic governance and 
justice now, but over the last 5 years the DG and justice 
budget was zero. USAID has not made Burundi one of its 
resiliency priorities and there hasn't been concerted 
accompaniment of economic integration in the region, even 
though it is one of the poorest countries, if not the poorest 
country in the world.
    And so as I conclude my remarks, I just want to focus on 
the opportunity that we have for the U.S., with Perriello's 
leadership, to make a broad, strategic commitment to preventing 
the crises of today as well as the crises of tomorrow, and 
using all of the instruments that are available--development, 
cooperation, diplomatic engagement--to see through the 
Burundian people to a peaceful solution to this crisis. Thank 
you very much.
    [The prepared statement of Mr. Jobbins follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much for your testimony and 
your recommendations.
    Dr. Ndura?

   STATEMENT OF ELAVIE NDURA, PH.D., PROFESSOR OF EDUCATION, 
                    GEORGE MASON UNIVERSITY

    Ms. Ndura. Thank you. I am very grateful to be here. I am 
grateful for this initiative to get more information about 
Burundi in order to hopefully shape and frame policies and 
actions that will be able to help the Burundian people build a 
peaceful country and peaceful communities.
    I was asked particularly to focus on ethnic relations in 
Burundi's struggle for sustainable peace. Just like my friend 
Mike, here, I request that my testimony be included in the 
official record.
    Mr. Smith. Without objection, so ordered.
    Ms. Ndura. Thank you. Let me begin briefly by stating that 
I am quite honored to sit here as a Burundian woman, as a Hutu 
Burundian woman who was severely victimized by ethnic conflicts 
in Burundi as I was forced to leave a life of single 
motherhood, of a political asylee, an immigrant in the United 
States, thankfully, after my husband who was Hutu was 
assassinated by the Tutsi-dominated government.
    So when I talk about ethnicity, it is real. It is real. I 
have focused my entire livelihood, my entire professional 
career on education in the hopes of contributing to the 
education and the supporting and the sustaining of a new 
generation that will be able to work together across ethnic 
lines to really engineer, co-engineer a sustainable future for 
Burundi and for the African Great Lakes Region.
    In terms of background, the history of Burundi can be 
divided into four main stages, what I call phases. First, the 
pre-colonial era, because people always wonder what is this 
ethnicity thing? People are all the same in Burundi. They speak 
the same language. They have, really, very much the same 
culture.
    So what is going on in Burundi? It is very difficult to 
understand. So many scholars agree that in the pre-colonial era 
ethnicity was there as a marker, but not as a major source of 
conflict. But during the colonial era, the Belgian colonialists 
in many ways divided the communities both in Burundi and in 
Rwanda, geographically and politically, and really very much 
created what we have come to know in academia and in daily life 
as Tutsi hegemony.
    Education was made a privilege that mostly Tutsi 
aristocrats were able to access and that continued even after 
the independence that Burundi acquired in 1962 as the 
structures were never changed. Hutus who have always 
constituted the majority of the country, about 84 percent, 
while Tutsis as Mike mentioned are 14 percent, we also have a 
very small minority of Twa as some people call them the 
Pygmies. We have Twas in Burundi and DRC, Democratic Republic 
of the Congo, and in Rwanda. They are very much a forgotten and 
an underserved part of the population, and yet which has always 
been exploited by both the Tutsis and the Hutus, especially 
during the war because they have been given weapons and asked 
to fight on whichever behalf.
    So this post-colonial era is itself divided in three 
phases: The 1962 to 1992, 1993 to 2005, 2005 to the current day 
in 2015. The first phase of the post-colonial era really 
continued, without interruption, the colonial divisions where 
the Tutsis were in charge, had control over the military, the 
economy, education. If you really wanted to get through any 
door during that time you had to have been connected to a Tutsi 
somehow. Some of us barely survived. I have more information in 
my most recent book, which opens with my story as a Hutu woman, 
for reference later.
    Nineteen ninety three saw Burundi turning the corner and 
becoming, attempting at least to become a democratic country by 
holding Presidential elections, which for the first time had 
many parties that were represented, which led to the election 
of Melchior Ndadaye, the very first Hutu and civilian ever to 
become elected President of Burundi. Unfortunately, hardliners 
within the Tutsi military assassinated him after only 100 days 
in power, and that set off the killings and the civil war that 
lasted 12 years.
    Let me back up first and mention that many in the 
international community including the United States, when they 
talk about genocide they always refer to the Rwandan killings 
of 1994. Very few people realize that in 1972, next door 
Burundi, also had a genocide, this time of the Hutus by the 
predominately Tutsi government and the military. So Rwanda and 
Burundi have always fed on each other's history and present all 
the time, so it is very, very difficult to tell them apart.
    The third phase of the post-colonial era, which is why many 
of you are interested today, the 2005 to 2015, it is a period 
that has been framed in many ways by the Arusha Accords that 
everybody probably will be talking about here, because the 
Arusha Accords that got all the parties together, even civil 
society, the international community together, to create a 
framework that would allow Burundi to move forward not just as 
a democratic country, but as a diverse country, as a country 
where everybody was going to be able to have a voice, everybody 
was going to have opportunities open to them. And I believe 
that is what all the Burundian people, both within Burundi and 
outside of Burundi, were hoping for, here is the Arusha Accord, 
finally.
    There is something that has happened in my research. I 
travel to Burundi a lot. My entire research agenda is dedicated 
to Burundi and the African Great Lakes Region. There is 
something good that has come out of the Arusha Accords--voice. 
The people of Burundi have reclaimed their voice. They speak 
up. The question that I ask then, do we listen when they speak 
up?
    And I think that is my major contribution today, because in 
terms of moving forward for Burundi and in efforts to avoid the 
recurrence or renewed violence based on ethnicity or any other 
intergroup dynamics, voices, the voices of the people must be 
heard. So I propose that we, the Burundian people, the current 
government, the opposition, everybody get together in order to 
really hold some honest conversations. Conversations where 
people express themselves, but also are willing to listen.
    I think my major concern ever since April of this year, my 
major concern has been the lack of spaces for those kinds of 
conversations. People have been saying many things. People have 
been talking. But as a researcher and a person who loves 
Burundi and has been invested in Burundi for many years, I have 
constantly been wondering if anyone is listening.
    Is President Nkurunziza listening? Is the current 
government listening? What are they hearing when people say 
``no'' to the third term bid? Is it just about the third term 
bid or is it something else that is complicating the current 
situation? But we cannot unearth all those reasons unless we 
listen with compassion. Listening with compassion, in my mind, 
means listening, knowing that everybody talks in good faith, 
and that is what I hope. But then that is a question. As a 
researcher, I have more questions than answers. So are all the 
people who are talking, talking in good faith? Do they have 
some kind of ulterior motives, something that they stand to 
gain or that they stand to lose?
    Let us go back to ethnicity. Yes, the government is mixed. 
Yes, even the Imbonerakure, the renowned youth militia. In some 
strategic areas in Burundi even the Imbonerakure is ethnically 
mixed. So, when some people go to those mixed areas they don't 
talk about ethnicity. However, it has emerged that when they go 
to talk in the campaign in promoting agendas in places that do 
not have Tutsi members among the Imbonerakure, the conversation 
shifts to, ``Hey, remember.'' Remember you have to support us, 
otherwise the Tutsi will get you again.
    So for me, I am sitting here confused and wondering, so 
where is Burundi? Is it really post-ethnic? I argue that 
Burundi is no more post-ethnic than the United States is post-
racial. Ethnicity, even on the surface, we think that 
ethnicity, people have made peace with ethnicity. Tutsi, Hutu, 
Twa are ready to work together and move forward together. I 
consider it a neverending undercurrent, almost a convenient 
divider that can be brought in at any time to advance some kind 
of agendas, wherever the agendas are coming from.
    So how do we deal with that then? I focus on the common 
good. When you walk into Burundi and travel across the country, 
one of the most striking things that you would notice is the 
major difference between people who have access to resources 
and people who have no access to resources. From big houses and 
big hotels and big cars and several employees in the house, to 
the villages where people have no food, where people have no 
shelter, where children walk around and run around in coats 
that have become so oversized and so brown because they can't 
even afford soap to wash them.
    So where is Burundi going, and how is violence contributing 
to worsening the situation of the real Burundian people beyond 
the politicians, beyond the policymakers? That is a major 
question for us to ponder because that is where the work needs 
to be done.
    Let us go back to education. I consider education to be a 
key path forward toward the reconstruction of the communities 
of Burundi, these communities that have been shattered by 
endless conflicts and violence. We do have the framework 
culturally. You know Ubuntu is not South African only. The 
ethic of Ubuntu is actually African. We have an author, Kayoya, 
who wrote a book and talked about Ubuntu the same way as 
Desmond Tutu framed Ubuntu for the future of South Africa. I 
propose that education be grounded again in those traditional 
mechanisms and philosophies that rekindle the spirit of 
interdependence that really has always defined the Burundian 
people and the Burundian communities.
    Reflective citizenship. I propose that investments be made 
to build the capacity of the Burundian people, especially the 
youth, to become reflective citizens. Those citizens who don't 
only vote because they stand to gain from the one who wins, but 
the people who run for office because they are convinced that 
if they win, the livelihoods of the people in those poor 
villages will actually be improved. Otherwise, for me, it 
doesn't matter who wins and who loses. It really doesn't 
matter.
    I guess you can tell that I don't stand here to gain 
anything. That is the beauty of being an academic. Tenured, 
too, so I can say what I want as long as it is constructive. So 
education for reflective citizenship. Education that promotes 
youth peaceful engagement and reflective citizenship. Burundian 
people love children. We sing to them all the time. We have 
amazing lullabies that even my grandsons adore. To go to sleep 
when they visit with me, they ask me to sing the lullaby which 
states how special they are and how loved they are and how we 
will always be there to protect them against the enemy.
    How can we rekindle the spirit that treasures the youth 
through education instead of arming them as child soldiers, 
instead of arming them as militias who kill even one another, 
sometimes resorting to killing even their own relatives? For 
what purpose? To get some money, to get some food, to get some 
clothes.
    So you are powerful policymakers and that is why I am 
trying to tell the truth here, because we cannot focus on 
Burundi as yet just another troubled and troublesome country 
and a region of the world where we cannot do anything. We can 
do something, but we have to be honest with ourselves and our 
policies. And, in fact, develop and implement policies that 
will actually empower the people of Burundi to change their 
livelihood from the roots, not at the surface.
    When we go in to do peacebuilding we are already in 
trouble. They are fighting, so we need to go in. Yes, it is 
good to go in, but what if we were to say we are going in to 
start educating the Burundian people from the bottom, from the 
roots? From the grassroots, so that when they graduate from 
school, or even if they drop out from school they have the 
spirit of unity, they have the spirit of interdependence, they 
have the spirit of reflective citizenship, instead of thinking, 
when I graduate I want to be able to build the biggest hotel 
and charge the most money that I can. How can we change this 
kind of thinking so that we reconstruct the Burundians to say 
this? Thank you.
    [The prepared statement of Ms. Ndura follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Mr. Smith. Thank you very much, Dr. Ndura. Despite your 
personal loss, and again let me convey on behalf of our 
committee our condolences because I am sure that has to be an 
ever-present source of agony for you, but despite all that you 
continue to fight hard for a durable peace and reconciliation 
with an emphasis on education. So thank you for sharing and the 
history as well, which I thought was very fascinating.
    Ms. Wilson?

 STATEMENT OF MS. ALISSA WILSON, PUBLIC EDUCATION AND ADVOCACY 
   COORDINATOR FOR AFRICA, AMERICAN FRIENDS SERVICE COMMITTEE

    Ms. Wilson. Thank you. Thank you to Chairman Smith, Ranking 
Member Bass, and the members of this subcommittee for holding 
this important hearing. My name is Alissa Wilson, and as you 
have heard I serve as the public education and advocacy 
coordinator for Africa with the American Friends Service 
Committee, or AFSC.
    The AFSC is a Quaker organization working in 56 locations 
throughout the world. Founded almost 100 years ago, we promote 
lasting peace with justice as a practical expression of faith 
in action. We were co-awarded the Nobel Peace Prize on behalf 
of all Friends in 1947, and have worked in Africa for over 50 
years.
    AFSC has worked in Burundi for over a decade, and like many 
Quakers before us we work with the belief that there is that of 
God in everyone. We have brought together people across lines 
of identity, ethnicity, religion, gender, and experience during 
war to heal and restore bonds of community. Our work with 
Burundian partners has yielded strong examples of communities 
resolving differences through inclusive dialogue and increasing 
self-reliance through livelihood approaches. We have also 
engaged actors at the sociopolitical level, on dialogue and 
exchange programs and on peacebuilding issues such as the Truth 
and Reconciliation Commission design and implementation.
    Currently, the AFSC is supporting the Friends Church of 
Burundi on an emergency response project that has brought 
together leaders from different faith communities. At the local 
level, pastors, imams, and priests are encouraging 
congregations to take action for peace. These congregations 
come from all over the country and represent an array of 
political backgrounds. And at the national level, a small 
committee of religious body representatives will reach out to 
different sociopolitical actors to advocate for dialogue.
    Our decade of experience working in Burundi leads us to 
three recommendations. First, help to revitalize the mediation 
process. Second, create a long-term U.S. strategy for Burundi 
that includes sustained funding for peacebuilding, democracy, 
rights, and governance programs. And finally, support regional 
actors in contributing to peace. Revitalizing the mediation 
process needs to be the top priority for the U.S. and other 
donors to help Burundi move past this very real crisis.
    We welcome the appointment of Special Envoy Tom Perriello, 
the Special Envoy for the Great Lakes Region of Africa. We hope 
he will support increased coherence to the mediation process by 
coordinating with the mediation team, East African Community, 
African Union, and other key actors. Attention should also be 
paid to civil society at this moment. A range of nonpolitical 
Burundian organizations has been working on trust building and 
good governance issues since the Arusha Peace Agreement. They 
should be consulted by the mediation team and be included in 
post-mediation planning. Their inclusion makes these processes 
more accountable to citizens and strengthens transparency and 
credibility. We recognize that civil society participation 
should be negotiated with all actors to ensure that their ideas 
have a voice balanced appropriately with the role of political 
actors.
    The Atrocity Prevention Board is to be commended for 
ensuring U.S. attention to Burundi over a year ago. However, an 
engagement strategy with Burundi should focus on long-term 
engagement not flashpoint prevention. Sustainable peacebuilding 
and development progress happens in the daily work between 
elections. And as Mr. Jobbins mentioned, democracy, rights, and 
governance funding for Burundi needs to increase. If we 
maintain these funding levels and continue to provide military 
assistance at significantly higher levels, what message are we 
sending to the people of Burundi?
    An investment in long-term accounts shouldn't come at the 
expense of those for crisis prevention and response like the 
Conflicts Crisis Fund, or CCF. Flexible funds for unexpected 
challenges are still important. Unfortunately, for Fiscal Year 
2016, for the second year in a row, the House budget did not 
allocate money for the CCF. The Senate passed a budget that 
included CCF but with only $30 million to cover efforts 
worldwide.
    Finally, the history of the Great Lakes Region includes 
conflicts that have spilled across borders. Countries have also 
provided support or safe harbor to armed groups from their 
neighbors, and we urge the U.S. to use good offices with 
Burundi's neighbors to create a setting where each country 
supports peace processes and refrains from involvement in armed 
activities within or across borders. We also encourage the U.S. 
to remain committed to collaboration with the EAC, AU, U.N. and 
others to respond with rapid, high-level diplomatic engagement 
in case of heightened violence.
    AFSC has worked in contexts of conflict across the globe 
for nearly 100 years and we understand that there is rarely an 
arrival in peacebuilding processes, there are cycles of 
challenges and opportunities for breakthrough. At this moment, 
Burundi once again faces a very real choice between reignition 
of conflict or a recommitment to building and maintaining 
sustainable peace and development. Regional actors, the U.S., 
and the global community at large must do all we can at this 
time to support the conditions for the latter to win the day. 
Thank you.
    [The prepared statement of Ms. Wilson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
                              ----------                              

    Mr. Smith. Thank you so much, Ms. Wilson.
    Mr. McDonald?

STATEMENT OF MR. STEVE MCDONALD, GLOBAL FELLOW, WOODROW WILSON 
               INTERNATIONAL CENTER FOR SCHOLARS

    Mr. McDonald. Thank you very much for inviting me to 
testify today, Congressman Smith, and thank you very much for 
your warm remarks, welcoming remarks, Congresswoman Bass and 
Congressman Donovan. I appreciate the opportunity.
    Batting cleanup is sometimes a disadvantage, sometimes an 
advantage because it allows me maybe to pick up on some points 
that I might have noticed that were not emphasized as much as I 
thought they should be. I was very involved in Burundi in 1993-
94 during the election period then, and from 2002 to 2008 with 
a former colleague of yours, Howard Wolpe, one of your 
predecessors, Mr. Smith, in doing exactly the kind of work we 
have been talking about here in terms of reconciliation, trust 
building, capacity building amongst the key leaders of the 
country including working with the integration of the armed 
services there, the newly formed national army coming from the 
former armed rebel groups and the existing National Army.
    We had quite a measure of success at that time working 
through the 2005 elections and the ceasefire in 2004 through 
the 2005 elections and beyond in terms of the demobilization, 
disarmament, and reintegration process. I mention this not to 
burnish my credibility but because it has been done. The kinds 
of things that my colleagues, particularly Alissa and Elavie 
and Mike, have referred to in terms of getting involved in 
long-term ways with democracy and governance and trust 
building, capacity building, education work has worked in the 
past. It is important to know that the crisis that we are 
facing now is a real one, but it is not ethnic in nature at 
this point, but it could become.
    The basic rivalry here is a political one. The basic 
rivalry is a Hutu-Hutu rivalry as a matter of fact. The primary 
opposition members who are challenging Nkurunziza and 
challenging the third term issue are Hutu. That doesn't mean 
the crisis can't grow and take us back to the days of old and 
pick up on that underlying ethnicity consciousness that Elavie 
was referring to, which is certainly there, and therefore we 
have to be very, very conscious of not letting it get to that 
point. And I am glad to see that the United Nations, the 
African Union, the East African Community, and the United 
States have realized this and made statements to this effect.
    The elections of course that we have just finished, we will 
know something about the results hopefully tomorrow. The 
elections commission in Burundi is saying that we had a 74 
percent turnout. I personally think that is probably a very 
high figure, probably higher in the countryside than it was in 
Bujumbura. The feedback I am getting from people I know is that 
this is an exaggerated figure. We will see.
    But the point is that the election has occurred. The 
opposition members who boycotted the election, although three 
of their names remained on the ballot, are now speaking out of 
a possibility of a unity government. I think that is a 
possibility that we should investigate, stay conscious of, that 
there may be still strands of dialogue and unity that we can 
bring together. You are all aware of course of the effort 
initiated by President Museveni to start a dialogue amongst the 
parties, again very late in the game. This was commendable but 
failed at the time, but there is no reason why that can't be 
picked up.
    But another thing that is very important to realize is that 
the third term issue, the political issue that set this off, 
was only a trigger for the violence. As I think Mike was 
outlining for us, there are much, much deeper issues here. As 
we know, the country is extremely poor. Eighty percent of the 
population live in poverty, $420 a year GDP, soaring inflation.
    I don't know if you are even aware that there were in July, 
early July and earlier in the year, protests around petrol and 
food prices and et cetera, and a strike was actually called at 
one point in time. The unemployment rate is 40 percent, much 
higher amongst the youth. Youth issues are extremely important. 
Malnutrition rates are very high. Chronic malnutrition. The 
vast majority of the population is rural and there are immense 
land pressures due to the high population density to begin 
with, but the returning refugees and displaced persons.
    So the numbers of issues that have gone unaddressed by the 
current government that has been in power for 10 years have led 
to a very, very unsatisfied, dissident population. Ironically, 
and I point this out in my written testimony but I won't 
elaborate here, Nkurunziza has been a popular President with 
the rural population, overall, and my own private opinion is 
that he could have easily won this election doing it without 
any kind of manipulation, and it is a shame that what has 
occurred, has occurred. That it really didn't need to. The 
third party issue should have been solved by the constitutional 
court and been just a legal issue that Burundi solved in and of 
itself.
    But it is important to know that the tensions in the 
country are real. The Imbonerakure youth gangs that Elavie 
mentioned are organized and active. They have been around 
actually since 2012 or maybe even before. They are often 
uniformed. They carry weapons. They operate mostly at night. 
They intimidate. They harass. They even kill. People often 
sleep outside their homes in rural areas for fear that the 
Imbonerakure youth gangs might show up. Even with the flow of 
refugees out of the country, Imbonerakure, according to 
information I am getting particularly in the north part of the 
country in Kayanza, have been intercepting refugees as they are 
trying to leave the country to go into Rwanda, taking away 
their belongings and even raiding in their houses in the 
evening to take furniture and stuff out of it.
    So they are continuing to intimidate population. The 
government has said of course that it is trying to disarm the 
Imbonerakure. That effort is moving very slow. Again, an issue 
that we may not all be aware of is the fact that since the 
ceasefire in 2003 and 2004, the efforts to get guns out of the 
population's hands, out of civilian population have been 
basically a failure. Some estimates estimate that as high as 
300,000 weapons still exist out there in the civilian 
population.
    Weapons of choice are grenades. Grenades are plentiful. 
They are easy to hide, put them in your pocket, throw them into 
a group of people quite easily. We see that all the time. The 
most egregious one was in Gatumba in 2011. You remember when 40 
people were killed in a bar.
    And then we have the refugee flows. I am sure you are aware 
that recent reporting by MSF says 1,000 people a day are 
crossing into Rwanda right now. Aljazeera was just reporting 
yesterday from the camp there, where there is 70,000 refugees 
now in Rwanda, up to 170,000 total including Tanzania. So these 
are very, very real situations. There was fighting on July 10 
in Kayanza which reportedly was with the armed forces and a 
group of rebels, who probably are former armed forces or 
involved in the coup, and they are well armed and they are 
staging in the Kibira forest area.
    So those tensions occur, continue to occur, and will be 
real for the time being and into the future, so it is a very 
tense situation that we are faced with. Undoubtedly, in a few 
days' time or by August 26th, we will, the West will be faced 
with a Nkurunziza-led government. Not happy with the way he got 
there possibly, but he will be there. We will have to deal with 
him. And while many countries are withdrawing their security 
assistance, other forms of aid including, as you well know, 
some of the aid that was coming in for the election process 
itself was withdrawn by three donors.
    Short of breaking diplomatic relations and cutting off 
ties, what is it that we can do to help to bring Burundi to a 
peaceful, sustained peaceful future? My colleagues have already 
named a number of things with which I agree. I think it is 
really important that we remain, first of all, we remain 
outspoken, which we have been doing. The new Special Envoy is 
good to have in place. We, along with the United Nations and 
the African Union, have said the right things recently. We need 
to push publicly and strongly for upholding democratic 
principles, the rule of law, freedom of press--extremely 
important. As we all know the press was shut down. A lot of the 
press was shut down during the crisis--but also for independent 
judiciary and independent elections commission.
    Part of the problem with the third term issue was the doubt 
cast upon the constitutional court's validity and so we need to 
push hard for that independence of the judiciary. We need to 
revive and strengthen the efforts of local NGOs, and NGOs like 
the international ones that are working there that are 
represented at this table. Community groups and religious 
organizations, we need to restart efforts to promote 
reconciliation and peace efforts across political, community, 
subregional, religious, and ethnic lines.
    And again I refer to those efforts that led us up to the 
2005 elections and through that which did have success. They 
can be done. We need to push and assist, which we can do, in 
this disarmament effort. The government says it is working on 
the disarmament effort. Let us hold it at its word. Let us push 
for that. Let us offer resources for that if we can.
    I think it is important that we mobilize and continue to 
mobilize greater national attention to the rising political and 
ethnic threat that Burundi represents to the country and to the 
region. Congresswoman Bass, here, asked about the region. We 
know tensions exist in the region. We know the relationships 
with Rwanda and Burundi are problematic and have been for some 
years going back to 1994 and before. We know that some staging 
of rebel groups, Banyamulenge and others, are rumored to be 
happening in the DRC. We know the FNL itself, one of the 
opposition parties has done some staging there.
    So we need to work with the regional group countries and 
to, as I said, push strongly to see that they do nothing to 
exacerbate the tensions in Burundi. Make it clear to President 
Nkurunziza and his closest allies and associates that they have 
violated international agreements and norms in their actions 
and that they bear the greatest responsibility for the current 
political crisis. They will be held responsible to the 
international community for any breakdown in the future in law 
and order and any mass violence that should occur.
    I think in this context that, Alissa mentioned this, that 
we should push for the establishment of the Truth and 
Reconciliation Commission, which is of course an Arusha Accords 
mandated body and has not yet come into effect. A little goes a 
long way to getting toward questions of justice. There should 
be no immunity for violent deeds by youth militias like 
Imbonerakure, the police, or any other party that is engaged in 
violence and loss of life because this isn't all just one-sided 
obviously. It is important to realize that this crisis did not 
catch the world unaware.
    Since 2008, when preparations for the 2010 elections began 
and in subsequent years, international funding for democracy 
and governance, as Mike as talked about, and reconciliation and 
peacebuilding has fallen away. The work with political party 
reconciliation, leadership development and integration and 
capacity building of the armed forces that was done through 
those years needs to be continued.
    The issue of making sure we have long-term commitments has 
been mentioned by everybody at this table, and it just seems to 
be something that never, ever gets through to policymakers. You 
never get a grant for more than 18 months to 2 years anyway no 
matter what you are doing, and as soon as you have done it then 
you have done that and the donor moves on to something else and 
somebody else. And just when you are beginning to establish 
yourselves and beginning to be effective and have impact, 
whether you are local, whether you are international NGOs, that 
gets withdrawn.
    Then another thing that I want to mention, just in closing, 
which Burundi officials will not like, and that is we often say 
to ourselves, and you hear this from the U.S. Government 
officials, that, well, we have such limited leverage, what can 
we do; how can we push? Well, it is true. We don't want to be 
in a position of taking away humanitarian aid and assistance 
and et cetera that is so badly needed. We don't want to break 
diplomatic relations. We don't want to do those things.
    But remember that there is one point of leverage that 
should be borne in mind. I am not threatening anybody, but in 
terms of Burundi's role in international peacekeeping in Haiti, 
Central African Republic, Cote d'Ivoire, Sudan, where it has 
over 7,200 troops committed, nearly one fifth of the standing 
armed National Army is committed to peacekeeping. They have a 
wonderful reputation, laudable contribution to international 
peace and order. However, Burundi is reimbursed by the U.N. 
$1,028 for each soldier deployed, or a return of $45 million 
annually, along with salaries of $750 a month received by each 
individual soldier, 7,200 soldiers. You can add all that up. 
The Burundi Government should be warned that mass violence in 
Burundi and any human rights perpetrated by the security forces 
domestically could jeopardize their ability to serve in future 
peacekeeping operations. Thank you.
    [The prepared statement of Mr. McDonald follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Mr. Smith. Thank you very much, Mr. McDonald. Let me say 
for the record, Tom Perriello as well as Secretary Linda Thomas 
Greenfield were invited. They had things that they are doing 
overseas. We have invited them at a date when they can make 
themselves available. I think that will happen. So part two of 
this hearing will be to hear from them, and probably more from 
the NGO side as well, sometime in September.
    We also submit for the record and unanimous consent, a 
statement by Assistant Professor Cara Jones and a letter from 
the Ambassador of Burundi to the United States. Without 
objection, so ordered.
    I thought since we have a series of votes coming, I, my 
good colleague Ms. Bass, and Mr. Donovan will ask questions and 
then we will see if we have time for a second round, if there 
are anything you didn't answer or we want to elaborate, we will 
do it that way.
    Let me begin the questioning, first, with July 2, 2015, 
just a few weeks ago, days ago, the State Department announced 
that they were going to suspend security assistance programs to 
Burundi. What do you think needs to be done to resume that 
money? As specific as possible would be appreciated. What role 
have neighboring states played in either fomenting or 
addressing Burundi's crisis? Is Kagame playing a role here? We 
have heard that. I would appreciate your thoughts on that.
    Mr. Jobbins, you went into great detail and appropriate 
detail about the impact in your part, backdrop of desperation 
that USAID funded research in 2010, 45 percent of the children 
under 5 are anemic, and NGO's report stunting rates of 57 
percent. As you know, Burundi signed up to the scaling up 
program in February 2013, which is this herculean effort on the 
first thousand days of life from conception to the second 
birthday. If you get that right, the next 25,000-30,000 days of 
that child's life into adulthood will be exponentially enhanced 
in terms of immunity, strength, stunting pretty much goes away, 
but that prenatal care, mother and baby of course, maternal 
healthcare is absolutely transformational. They signed up in 
2013; how well or poorly are they doing, if you can speak to 
that.
    Let me also ask about, Ms. Wilson, you emphasized the 
importance of the faith community. Maybe all of you might want 
to elaborate how they are being on all sides, all faith 
community leaders into the peace efforts, the mitigation of 
ethnic animosities. Is that working? Do they utilize the faith 
community as effectively as they could?
    Ms. Wilson, you talked about how revitalizing the mediation 
process should be the top priority for the United States. Is 
it? Are we doing it? If not, are we about to do it? And I do 
have other questions. And the 150-plus journalists, did any of 
them encounter any threats, pushback? Were they unfettered in 
their ability to report on and to ascertain what is truly going 
on?
    Ms. Bass. Sure, I just have a couple of questions really 
focusing on the U.S. and what more we can do, in particular 
with the IDPs and the concern about people being in the 
surrounding countries and what more that we can do on the human 
rights side, on the humanitarian side, but also on the security 
side.
    And then the AU has taken a position that they will not 
recognize the results of the election which, although they 
haven't been announced, everybody knows what the results are 
going to be, and so I wanted to get a sense as to practically 
what that means. Will the President not be allowed to 
participate in the AU? Will he be kicked out? How do you see 
that in whether or not you see that is going to have any impact 
on him? Those are my two questions.
    Mr. Donovan. I, as is the chairman, very concerned about 
the children. And I met with a group yesterday, we were talking 
about preventable diseases that we have medicines and 
inoculations for, and also about the malnutrition that you 
spoke about, Mike, and wondering if the aid being provided, 
first of all, is it being provided for the children?
    Doctor, I have a 2-month old and I am so glad to hear you 
say about the children, how they are cherished in your country.
    So, one, is aid being provided? Is medication being 
provided for these preventable diseases, and is food being 
provided to help with this malnutrition? And two, if it is 
being provided, is it getting to the children or is the 
government allowing the aid to be received by those who are in 
need? So those are my two issues.
    Mr. Jobbins. Thank you so much. To take first perhaps the 
cross-cutting question of nutrition and food security. We have 
seen some progress with a lot of different assistance programs 
to ensure food security, but what we haven't seen is that the 
fundamental underlying mathematics is broken of this 
agricultural society that doesn't have enough land with the 
agricultural techniques to feed its people. And so the question 
for the long term is not how do we ensure food security right 
now, but how do we set a path for growth? And that is only 
through regional integration, it is only through an education 
system that prepares people for the modern economy and through 
dealing with this urban class. And so I think to us that is the 
biggest gap. Certainly emergency feeding is needed, but setting 
people up for a path for growth is what we haven't seen a lot 
of progress on and what is absolutely critical.
    But to come to terms with Mr. Smith's question about the 
media, we did feel that with the journalists who we worked 
with--we worked with six radio stations as well as our own 
journalists--we were able to document what happened on voting 
day. However, this is a current against the backdrop of, like 
Steve said, a number of radio stations are off-air. We have in 
principle the President as well as certainly the media 
themselves want to get back on air, but there is a lot of very 
deep issues about the pre-conditions for those to get back on 
air.
    And in terms of where, places where there could be found 
common ground, certainly every political actor in Burundi has 
been the victim of hate speech at one point or another in their 
careers and everyone has benefited from the opportunity to have 
a fair shake through the media. And so to the extent that that 
can be an opportunity to get those stations back on air to meet 
the concerns of the government, get them back on air can help 
create the conditions for a dialogue to be successful. It is a 
key confidence building measure and one where we feel that 
there is a decent chance at least of beginning to set things on 
the right course in supporting that dialogue and social 
compact.
    To touch just rapidly on the two questions of the faith 
communities and the displaced. The faith communities have 
played a heroic role particularly on the aspect of preventing 
violence. We have worked with interfaith groups throughout this 
crisis. I was meeting with them the day before protests broke 
out about how you talk about violence to your parishioners or 
to your congregations. And the number one message that they 
focused on was the principle of individual accountability, the 
story of Cain and Abel in the Christian tradition.
    At the end of the day, you alone are accountable for your 
acts before the law and before God. It is not your commander. 
It is not your neighbor. It is not your political leader who is 
going to be rendering an account for the judgment, but in fact 
it is going to be you yourself who have to justify your own 
actions. That has been something that has been particularly 
empowering and something that needs to be reinforced. That 
principle does not group collective blame but rather every 
individual has the right and the responsibility to for their 
own actions, and the faith community has been very instrumental 
in communicating that as a moral message.
    And then the last question on the displaced people, we see 
that there has been a slow increase in assistance. Right now 
the capacity is still overwhelmed particularly in Tanzania and 
Rwanda with the reports of the latest, there seems to be signs 
it is being overwhelmed. And in Congo, of course refugees are 
fleeing into an area that is profoundly unstable and risks 
destabilizing further the context of the Ruzizi Plains on the 
Congolese side.
    But what we hear from our colleagues--we work in each of 
those countries. What we hear from our colleagues are two other 
needs in addition to the humanitarian needs. One is access to 
information, media programming and information that can help 
prevent those populations from being manipulated. We have seen 
in past crises in the region how refugees have been 
instrumentalized, have been manipulated into worsening the 
violence back home, and that is something that will absolutely 
be critical.
    And then the second is the issue of protection. We hear 
particularly our colleagues, from talking with the Tanzanian 
Government, there are a lot of concerns in how the government 
themselves can ensure protection for these vulnerable 
populations, for victims, for women, for children who are 
fleeing, how you ensure their security, how you ensure their 
wellbeing in this crisis. It is something that in those areas 
the government hasn't had a lot of experience and capacity and 
resources for.
    And so to the extent that we can focus on the protection of 
women, children, victims of violence in those refugee settings 
is a key point that has been underlined to us by the 
humanitarian community and by the governments of those 
neighboring countries. I think I will let my colleagues speak 
to those points, and then also about the regional actors.
    Ms. Ndura. Let me focus on children's issues. I can say 
that I am a grandma. I always start with the children and I end 
with the children. It is almost like when you travel across 
Burundi, it is very much as if it's two worlds ``juxtaposed'' 
to each other. Even within the same provinces, you go to an 
area in the city centers or a neighborhood where children are 
very well cared for, have everything they need, even more than 
they need. They are spoiled to death even, sometimes, and have 
a great education. They are multilingual, sometimes in French 
and Swahili because they have the best schools. And then you 
walk a mile or two to just see children who are in the dirt, 
many times with not even the basic clothing on, honestly, naked 
in the street in the water puddles after it rains. And then of 
course with all the germs or the illnesses that that brings to 
them.
    So when I travel and work across Burundi I always ask 
myself that same question, where is all the assistance that all 
these multi-nations are saying they have poured into Burundi? I 
personally have not seen it. I am being honest. I really have 
not seen it. Because I was able to travel to Burundi for the 
first time in 2006, because I was a political refugee I had to 
wait for my U.S. passport for which I will forever be grateful. 
That is what allowed me to go back to Burundi to do the work 
that I currently do.
    But you don't see, I have not been seeing. In 2006, I 
thought this is normal. The country is barely emerging from 
armed conflict so it is normal that everybody is hungry, that 
everybody is poor. But how about today, 2015? I was there in 
March. The conditions have not changed. So I don't see where 
the support is going. So what do we do? Do we stop? Definitely 
not. Because if we were to stop the assistance, then many more 
children, many more expectant mothers would die.
    I would say expect accountability. How do we do that? 
Burundi, it is very difficult to operate and to collaborate 
with people from different cultures, because if we ask for 
reports about how the assistance has been spent and we get the 
reports but that is not always how exactly how things were 
done, and we proclaim that things were done because we have a 
report. The report is not always the reality.
    So I suggest that not only we continue the assistance to 
the children and to the mothers, but actually increase it. But 
also monitor, more effective monitoring practices from people 
who have a greater conscience. I don't want us to do like one 
country in Europe did. They gave cows to a community, three 
cows, and then they sent three consultants, one per cow. And 
one consultant per cow and they were paid $15,000 to watch over 
the cow. No, that is not what I am proposing.
    But we surely need a more effective monitoring process that 
would ensure that the assistance gets there, that it is 
distributed, so that we can increase it. There are very 
responsible people in Burundi, we just need to find them. There 
are people who are compassionate in Burundi, we just need to 
find them. Because most of the time those that we reach 
immediately because they have access to us, they have access to 
these important people with whom they have been working for 
years, sometimes you may be surprised that they may not be the 
best.
    Moment of truth here. Seriously, I did research on NGOs, 
community based peacebuilding programs and practices a few 
years back, and one of the lessons I learned was that oh, how 
come all the NGO heads and Presidents, how come they are all 
Tutsis? I noticed, but they still talked to me and I 
appreciated the work they did. But as a researcher I still have 
to ask myself. So who has access to us and whom do we have 
access to has to be reconceptualized to make sure our good work 
really produces the impact that it is meant to have.
    Now beyond children there is youth. Children are not the 
same as youth. Let me go back to the youth. Until we invest in 
sustained opportunities to provide the youth with the means to 
produce their own food, their own money to take care of 
themselves, to go to the clinic when they are sick, to take 
care of their wives and children when they get married and have 
families, until we show them that they do not need to depend on 
biased and self-serving political party leaders--there must be 
a category for enhancing and developing the capacity of youth 
to productively engage in the affairs of Burundi--I am sitting 
here to say the troubles of Burundi will continue. Because when 
those young men, young women are hungry, they will do whatever 
they need to get food. We are just talking about food. We are 
not talking about cars and houses and boats. We are talking 
about basic needs, food, medicine, shelter. The youth. There 
must be a category--yes, the children. We need to help them 
grow in a safe neighborhood. But there must be a new emphasized 
category for the youth. Until we listen, we are not helping 
Burundi and the Burundian people.
    Ms. Wilson. Two quick points. First, on the mediation. So 
as you mentioned before, we had not had as robust a presence as 
we might have in this process because we didn't have a Special 
Envoy appointed. And so I would say right now we have a hopeful 
moment that someone is there and can really be the U.S. point 
person on collaborating with these partners. But I would say 
that two mediators were dismissed from this process and now we 
are on to a new process.
    And I would say that it has been harder to see how and 
whether the Burundian NGOs that we mentioned, that Steve has 
mentioned, will be consulted and what that consultation will 
look like. And if it happens in a black box, to come back to 
the Burundian people and explain what has happened will be 
harder than if there was a process that did involve these kinds 
of organizations.
    Also on the role of faith, someone said to me that people 
are believers before they are political beings, and I thought 
that was just a really salient point. Because there is a reach 
that faith communities have that others don't have just because 
of the moral authority often that faith leaders play. And it is 
not always easy, and it is not always that faith leaders are 
apolitical beings, but that there is a higher sense that they 
are trying to work toward.
    And as Search for Common Ground as done, as we have done, I 
think, in supporting the faith leaders who really want to come 
together and ensure that both at the local level and at the 
national level, these messages for dialogue are really being 
heard in the community. And as I mentioned, it is happening 
across the country, and I think as long as that continues we 
have a hope line for what can happen both within civil society 
and at the sociopolitical level.
    Ms. Ndura. And may I add that even with the faith community 
we cannot go in without thinking and asking critical questions? 
One of the things I noticed when I traveled to Burundi is that 
many of the guests at hotels, sometimes large numbers, are 
always missionaries, mostly from the United States. So there 
are financial advantages for many Burundians for connecting 
with those missionaries because they bring dollars.
    So are we practicing faith because we are called by the 
Almighty to improve the wellbeing of the Burundian people or 
are we preaching and praising the Almighty because He, or She--
who knows? I haven't seen Him. I believe, but I don't know. Are 
we praising the Almighty because He has helped us connect with 
somebody who would help us complete the foundation for our new 
home?
    Do you know that President Nkurunziza is one of the most 
practicing faithful people? He prays a lot. He even dances for 
the Lord. Is he listening more? Should he listen more? Is he 
growing from his faith that tells him to love all people and 
care for people, to actually develop and exact policies that 
will help him and his associates live by faith? I would just 
end with that question.
    Mr. McDonald. I want to respond to several of the 
questions, but I will start where Elavie and Alissa ended, 
first of all, just by saying quite simply that I have not been 
to a country in Africa--and I have been to almost every sub-
Saharan African country for an extended period of time in my 
life--that is more faith-based, is more religious than Burundi. 
It is a deeply, deeply religious people. But I absolutely agree 
with what Elavie said. President Nkurunziza has been here for 
the Presidential Prayer Breakfast. He has been wined and dined 
by all kinds of faith-based people and organizations, and we 
have got to be very careful how we approach this issue. That is 
all I will say on that.
    Mediation process, not a whole lot more to say than what 
Alissa said. I think it has not been a top priority, which was 
your question, Congressman Smith, but it should be and 
hopefully is being underlined even more now. I am aware of a 
process that is going on right now in The Hague where the 
Burundi Leadership Training Program, an organization that I had 
a lot to do with coming into being, and The Netherlands 
Institute for Multiparty Democracy are meeting with State 
Department officials from the Bureau of Conflict Stabilization 
Operations talking about exactly this effort. We need to 
encourage, we need to enlarge on that. It is an area in which 
we can have an effect.
    But also to your question on the regional role, regional 
states' role, Uganda of course was doing, I think, a very 
honest mediation role in the past few days, so let us not 
ignore the neighboring states as potential players in the 
mediation process. As far as what we should be saying to 
neighboring states, I think it goes back to that old platitude, 
first of all do no harm, because that is possible.
    I am not an expert in this area, but there are certainly 
rumors about that Rwanda has possibly tried to instigate anti-
Tutsi fears, and whether this is happening officially or not we 
don't know. But certainly tensions are building, and as I said 
in my oral remarks, the tensions in the eastern DRC 
organizations and groups that are there, FDLR, Banyamulenge, et 
cetera, have got to be very careful that they don't get 
involved in this. So we really need to be consulting with all 
the neighboring states at all times.
    In this security sector assistance, I think the United 
States has done exactly the right thing in terms of stopping 
that assistance right now. I think we have got a situation in 
some ways, and analogous to Nigeria now, we want to be helpful 
in Nigeria in the fight against Boko Haram, but how can you 
work with a military that is corrupt and ineffective and 
inefficient? So you have got to be sure you have some security 
sector reform before you can move back in there. It is not very 
easy.
    The army, as Mike said, has been one of the positive things 
in this whole crisis and transition and that is good, but they 
are not without their own divisions particularly from the 
intelligence unit which is very close to President Nkurunziza. 
But they are very well meaning, professional army officers of 
both Tutsi and Hutu backgrounds with whom we can work. What we 
can do is have a very, very effective well plugged-in defense 
attache there who is following these things very, very closely.
    And I am not quite sure what the status of that is with our 
Embassy. I am a very, very big supporter of Ambassador Liberi. 
I think she is doing a wonderful job, but I think she is 
limited in her staff and her outreach and her ability to get at 
some of these issues. So that maybe needs to be one thing we 
build up just to know more about those divisions within the 
army, and when the time will come when we can work with them 
again in terms of security sector assistance.
    In some ways that is the same thing I can say about the 
refugee issues. Mike has elaborated on that a bit. One thing is 
we need to be better informed. I don't think anybody from our 
Embassy in Tanzania has been to the border yet to visit with 
those refugee camps. I know they haven't gone yet to the Rwanda 
border because those camps have just popped up there, literally 
just popped up there overnight. Obviously we have got to work 
very closely with the U.N. High Commissioner for Refugees on 
that, but our own efforts to inform ourselves need to be 
increased.
    The other thing was your question, Congresswoman Bass, on 
not recognizing this election and what happens next. I am 
reminded, I can pull my gray beard out on this and I am 
reminded of what happened after the Idi Amin coup in Uganda, 
and I was in Uganda at that time as a political officer in the 
American Embassy. And the OAU had a really tough time knowing 
who to seat at the 10th anniversary of the OAU up in Addis 
Ababa when Idi Amin and Milton Obote both showed up. It can be 
a difficult issue.
    But the AU is not the OAU. They operate by some pretty 
different rules and it is a much better organization. But 
still, I think the fact of the matter will be, as I said in my 
testimony we will be faced with a government that we will have 
to recognize. That it will be a de facto situation that we will 
have to deal with. How the AU handles that, how we handle it 
diplomatically I will leave to other people to sort out. But it 
is going to be a fait accompli. And in time, there may be some 
awkward moments over the next few months, but in time they will 
be accepted and we will have to work with him and with the 
Nkurunziza government one way or another. I think that is all.
    Mr. Smith. We still have a few minutes before the votes, so 
just a couple of follow-up questions. Mr. McDonald, in your 
testimony you talked about a novel idea which would cost 
Burundi some $45 million if they were disqualified from 
participating in peacekeeping. They have the deployments in 
Somalia, Cote d'Ivoire, Sudan, Haiti, Central African Republic, 
and the numbers are rather stark, $45 million and $750 per 
month for the soldiers as you point out, one-fifth of the 
standing army. And I do believe, and correct me if I am wrong, 
that that actually helps make them a better, not worse, 
military force because of the humanitarian work they do.
    But I remember when Mr. Jobbins testified on the Central 
African Republic almost 2 years ago, pointed out to our 
committee that the Burundi deployments were among the most 
professional, if not the most professional that you saw, which 
is a paradox. Is it the police that is really the problem, or 
the military? If you two might want to elaborate on that. 
Because I think I know what you are trying to get at, Mr. 
McDonald, and it is a laudable goal to try to have some impact 
on the government. But again I think those peacekeeping 
operations might be harmed. I am not sure enough could be 
raised up in any reasonable amount of time, but again they are 
among the most professional, which is a paradox.
    Secondly, on the issue of the first thousand days from 
conception to the second birthday, the numbers are not really 
coming down. And I am not sure with the big sign-up ceremony in 
February 2013. In other places we have seen it--I was in 
Guatemala the day the Guatemalan Government signed on to the 
first thousand days program; with nutrition supplementation for 
mother and baby, both unborn and newborn, the stunting does 
come down. In Nigeria, \1/2\ million kids died before the age 
of 2.
    Preventable deaths like few places in the world, and we are 
hoping--I raised it with President Buhari yesterday that this 
should be a singular issue that he says, for the sake of the 
children and the mothers, do you want to mitigate maternal 
death and morbidity, make sure that there is enough proper 
nutrition and supplementation for both mother and baby. And 
again stunting does go away if this were to happen. So if you 
could maybe elaborate a little bit on that issue, because I 
think that is a cost-effective initiative that has got a lot of 
rhetorical support but not a whole lot of implementation on the 
ground.
    And on faith leaders, my real focus is on the pastors, the 
bishops, the archbishops, the people who I have found, and I 
have been here 35 years and I remember in Central America it 
was the church that played pivotal roles. Cardinal Obando y 
Bravo in Nicaragua, I remember meeting with him when he was 
under siege, frankly, but they tried to make peace. They tried 
for human rights to speak truth to power.
    And all over Africa, everywhere I go I meet with the faith 
community, whether Muslim, Orthodox Christian, Roman Catholic, 
Evangelical and others, Friends, and everywhere I go I find 
they have that higher calling, as was mentioned, and they put 
their lives on the line like few people that I know. Now there 
could be politicians who brandish and wear their faith on their 
sleeve, but I find that the clergy, they are in it for the 
people and that is the way they serve God.
    And I am just wondering if the U.S. Department of State and 
USAID, because I have this argument with them all the time, 
sufficiently understands the asset that they pose? We have been 
pushing this in South Sudan to get the church more involved. 
They are ready and willing. I have met with bishops, my staff, 
Greg and Piero have, and they get put over to the side a little 
bit. Have a prayer service at the beginning, but they are not 
really integral parts of this whole process. So if you could 
speak to that one as well.
    Mr. Jobbins. Thank you so much. I think to the first 
question about the role that the Burundian troops have played, 
for example, in the Central African Republic, I said, as you 
alluded to, several years ago, and it is still is the case that 
they are playing a very positive role and are certainly 
cooperating and contributing to protection in that country and 
in, as far as I understand, a number of the other countries 
where they are deployed.
    I think what I would take away is that you get what you pay 
for, and security sector reform and a focus on the army reform 
was an organizing priority and we have seen relatively good 
performance from the army. There was less of a focus on police 
reform and less of a focus on justice sector and less of a 
focus on a number of other elements of the security sector. 
They have been the groups that have been the most criticized, 
partially because they haven't been supported through this 
process.
    Second, on the question of nutrition, one of the real 
achievements of the Nkurunziza's administration and the 
Government of Burundi with its partners has been child 
survival. It has been the healthcare extension. It has been 
also a schooling extension to the rural population that is a 
source of the popularity of the current government, or one of 
the reasons that Steve alluded to. There is a lot more that 
needs to be done fundamentally. For me the challenge is looking 
at the optimistic scenario, if we are facing 40 percent 
malnutrition in 2050, it is not how you get from 40 percent to 
35 percent, but how do you create the environment for an 
overall step change in the economy? Fundamentally we do need to 
work on child survival and agricultural livelihoods, but also 
how can you set a path for growth so you can get from 40 
percent to zero percent? And that is going to be the big 
political challenge.
    Mr. Smith. On that issue, now I understand immunizations, 
oral rehydration nutrition therapy, all the pillars of child 
survival, but are they also doing the first thousand days of 
life effectively? They signed on, it is just are they doing it? 
Do you know?
    Mr. Jobbins. For that I am not sure. I don't know the 
details of all the programs. There are certainly programs 
underway, but the details I don't know.
    And I think the last is just on the question of the 
religious community. We are supported to an extent for our work 
with the religious community from the Department of State via 
the CSO Bureau. Certainly there is always a need for more and 
more support and particularly in other kinds of domains, but on 
this immediate question of how can the religious community work 
with their flocks and their followings to reinforce that 
message of nonviolence, that component at least is being 
supported at least to an extent by the Department of State.
    But in terms of the broader engagement and the engagement 
of the religious community as thought partners, I think 
Museveni's meeting with the religious community as part of his 
mediation process was a positive one. And certainly as we look 
to see how that broader social compact could be reinforced 
beyond the political question of who gets to lead Burundi, but 
how can we try out a Burundi that people want, certainly the 
Burundi faith community as well as the media as well as youth 
groups and community leaders have to play a huge role in that. 
And so hopefully we will see their political involvement going 
forward as part of the solution.
    Ms. Ndura. The Catholic Church has been one of the most 
vocal and actively engaged faith groups in Burundi from the 
beginning. In fact, Le Conseil des eveques, the Bishop's 
Council was instrumental in leading Burundi to the Arusha 
Accords in the 2,000 years and before that and they have been 
very vocal. The only complication is that they have been very 
vocal against President Nkurunziza's bid for the third term.
    So now what I wonder is how would collaboration return, 
because they do need each other. They need to work together. 
Burundi is almost 60 percent or so Roman Catholic 
approximately, a legacy of Belgium, so collaboration is a must 
between the government and the Roman Catholic Church. I am not 
clear yet how they will be able to renegotiate that.
    But on a smaller scale, my colleague here keeps saying we 
need to invest more, we need to invest more. George Mason 
University has had initiatives working to build the youth 
capacity for peaceful engagement, and we have been doing the 
work and the collaboration with the Archdiocese, Gitega 
Archdiocese Office of Education Supervision. And they keep 
saying we have more ideas, we need to do more work, we need to 
do more work. But we have yet to generate any kind of financial 
support that would help us to strengthen and expand the work 
that they have been doing.
    University of Ngozi, also in Burundi, which is interethnic, 
multifaith, and international, a private institution run by a 
Catholic priest, is also one of George Mason University's 
partners. And through our work and collaboration in March, 
particularly this past March, they were able to organize a 
youth interfaith festival, therefore enhancing the 
consciousness of members of different faiths within the 
university community and beyond to work individually and 
collectively to promote nonviolence and peace in Burundi. So 
the faith communities are engaged, but as Mike keeps saying and 
reminding us, we cannot do the work we need to do without 
adequate financial support. Our energy can only go so far.
    Mr. Smith. Before you answer, Ms. Wilson, because you might 
want to incorporate this, on Monday, the Department of State 
will announce their TIP ratings for human trafficking. And for 
the record, I wrote that law. It is called the Trafficking 
Victims Protection Act of 2000. I wrote 2003's and 2005's 
expansions and reauthorization.
    Burundi has a Tier 2 Watch List ranking. And their 
recommendations--I don't know what it will be Monday, but it 
might drop to Tier 3, which means a country is an egregious 
violator. Finalizing a draft legislation on trafficking is one 
of the recommendations that was made. There were a number of 
recommendations made by State. What is your sense about the 
trafficking situation in Burundi today? Because again, Tier 2 
Watch List, child sex trafficking, forced labor on plantations, 
it is a huge problem and I am wondering if the government is 
doing enough on that, as you go and answer the other questions 
as well.
    Ms. Wilson. I cannot answer that question, but it is 
something that I will ask some of our colleagues about. And 
just a small footnote to say that I mentioned time to start 
planning now for the long-term engagement, because it is hard 
when you are in the middle of a crisis to think about what is 
going to happen at the end of a crisis, just as the faith 
community, as it is consulted by Museveni and others, should be 
consulted as the U.S. plans for that future part with State, 
with USAID and others.
    Mr. McDonald. On the faith leaders issue let me add just 
one little thing. And that is, in the work that Howard Wolpe 
and I were involved in and those years that we were involved 
with a cross section of leadership, we were sure to include the 
Archbishop of Burundi, several of the provincial archbishops, 
and Pentecostal and Protestant leaders as well. It is important 
not just to support the faith-based community and what they do 
with their flocks, but to be sure they are part of the national 
dialogue as you begin to build any kind of mediation effort or 
whatever.
    Mr. Smith. Is State doing that now?
    Mr. McDonald. Not that I know of.
    Ms. Ndura. And sex trafficking, human trafficking, I have 
not presently collected any data on that but I have witnessed, 
as I travel a lot in Burundi, it all goes down to poverty. 
Poverty. People will do whatever they have to do to find food 
and to find shelter. I guess you realize we have the same 
problems here in the United States. In the most poor 
communities that is where we have the greatest problems, 
relevant problems. That is why I keep going back to the need to 
intentionally invest in the youth in order to impact any of 
these problems positively.
    Mr. Jobbins. And I think just to complement on the TIP 
issue--and thank you so much for your leadership on that and 
putting protection of vulnerable groups at the forefront of 
U.S. engagement--we, certainly on the regional sex trafficking, 
we have certainly heard reports, the extent, I don't think, is 
documented.
    And I think one of the biggest questions both in terms of 
assistance to the Burundian side, as well as for international 
groups is understanding the extent to which these very real 
phenomena are there, but what I can say is that it is almost 
certain to increase. With one of the highest rates of 
urbanization in the world you have young, poor migrants moving 
into cities and to vulnerable situations and increases in 
street children and other kinds of people living at the margins 
of society, and so it is very foreseeable that child 
exploitation, the sexual exploitation of these vulnerable 
groups is going to increase both in the urban areas as well as 
many of the reports that we also hear about the artisanal 
mining communities, where it is not a huge trade in the region 
but there are artisanal mining activities, and we hear worrying 
reports about child protection and vulnerable group protection 
there. So it is certainly a very, very real risk and it is 
something that needs to be focused on as we focus on these 
broader issues, how do we really protect that vulnerable group?
    Mr. Smith. Mr. McDonald.
    Mr. McDonald. Well, I will leave the trafficking, because I 
don't have any statistical evidential thing to put forward on 
that except in just all of my years of being involved I have 
seen the trends that are being spoken about by Mike and Elavie, 
and including in young women and prostitution, Burundians both 
in DRC and other neighboring countries, so they get there 
somehow.
    On the peacekeeping question that you asked, let me add 
something there. There is a difference between the police and 
the military, the army, in terms of how they have responded and 
how they see their national mission, in my mind. In the work 
that Wolpe and I did with the military and the integration of 
the military armed forces, which lasted over a period of about 
2\1/2\ years with repeated workshops and ongoing efforts at 
creating a sense of interdependence and trust building, et 
cetera, none of that was ever done with the police.
    Police certainly got technical training from the Belgians 
and the French and others, but the police of course were 
transitioning from a gendarmerie to national police situation, 
old Belgium style, French style gendarmerie, in which sort of 
the role of them in terms of servants of the people and et 
cetera just is not quite understood. I think their sense of 
mission is very different than what the professional army has 
developed over these years, and that is why the army has 
performed so very well in its peacekeeping missions abroad.
    Now the individual soldiers who have been involved in those 
peacekeeping missions have been rotated. We are not talking 
about 7,200 troops stationed over there permanently. So this 
permeates the army and they are very proud of the 
professionalism and the reputation they have gained and et 
cetera, so this is really something to build on. Although the 
numbers that are abroad at any given time are one-fifth of the 
armed forces, the entirety of the armed forces have been 
involved in one way or another in this whole peacekeeping 
process. And so it really is a point of national pride for them 
and we should keep that in mind.
    Mr. Smith. Thank you very, very much for your testimonies, 
your expert guidance. Anything you think we have missed that 
you would like to add to the record and give us guidance on 
would be deeply appreciated. But thank you for your time, your 
expertise, your commitment. It really does make all the 
difference in the world. The hearing is adjourned.
    [Whereupon, at 1:39 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------  
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                  
                              

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
